No. 20-6138
January term, 2021

IN THE
SUPREME COURT OF THE UNITED STATES

_JERRY WALKER

PETITIONER

vs.

WENDY KELLEY

RESPONDENT

PETITION FOR REHEARING RULE 44
UNITED STATE SUPREME COURT
PETITION FOR REHEARING ON WRIT OF CERTIORARI

JERRY WALKER # 124248
DELTA REGIONAL UNIT
880 EAST GAINES STREET

RECEIVED
MAR 19 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

DERMOTT, AR. 71638

9zfit Luau,

RECEIVED
JAN 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Come now Petitioner, Jerry Walker bring fourth his pro se petition for rehearing under Rule
44 in good faith and not delay. Requesting that the United States Supreme Court would grant petition
for rehearing in the above style case so, that the constitutional merits be address by the court on writ of
certiorari that was denied on December 14, 2020. The six amendment of the united states constitution
plainly states; In all criminal prosecution, the accused shall enjoy the right to a speedy and public trial,
by impartial jury of the state and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him: to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.Here are the
grounds why petition for rehearing should be granted.
Ground One: Petitioner base ground one on the sole fact his reliance upon. Lee v. lllinois.476

US 530.106 S.ct. 2056. 90 L.Ed. 2d 5/4,Writ of Certiorari was granted, Supreme Court, Justice
Brennan, held that trial court's reliance upon a codefendant's confession as substantive evidence
against the defendant violated her rights under the confrontation clause of the Sixth Amendment.
Ground Two: Petitioner base ground two on the sole fact his reliance upon

Alabama. 380 U.S. 415. 85 S.CI 1074. 13 L.Ed.2d 934

Douglas v.

The Supreme Court Granted certiorari and in an

opinion by Mr. Justice Brennan, held that state defendant's inability to cross examine witness, who had
convicted for the same crime and refused while acting in his own interests to answer questions in
reliance on privilege against self-incrimination as to witness alleged confession which implicated
defendant and which was read to jury by prosecutor under guise of cross-examination after witness had
claimed privilege, constituted a denial of defendants 'ght of cross- examination secured by
Confrontation Clause of the Sixth Amendment.
Ground Three: Petitioner base ground three on the sole fact his reliance on

Barber v. ,Page.

390 U.S. 719. 88 S.a 1318. 20 L.Ed 255‘ Where certiorari was granted, The Supreme Court, Mr.
Justice Marshall, held that where principal evidence against accused at trial in Oklahoma for armed
robbery consisted of reading a transcript of preliminary hearing testimony of witness who at the time of
trial was incarcerated in federal prison in Texas and it appeared that witness had not been present to
testify in person because state had not attempted to seek his presence. accused was deprived of his
Sixth and Fourteenth Amendment rights to be confronted with witness against him.

2

I pray that the United States Supreme Court would grant petition for rehearing, so that court can
address the constitutional merits on certiorari.

CERTIFICATION
I do here by certify stating that the grounds are limited to intervening circumstances of substantial or
controlling effect or to other substantial grounds not previously presented.
Respectfully Submitted
Jerry Walker# 124248
Delta Regional Unit
880 East Gaines Street
Dermott , Ar. 71638

3

STATE OF ARKANSAS
§

COUNTY OF •.0-c- -)

SUBSCRIBED AND SWORN TO BEFORE ME, a Notary Public, on this So day of

JET

, 20cal.

Notary Public
My Commission Expires : 4/-

STEVEN A MITCHELL SR.
NOTARY PUBLIC-STATE OF ARKANSAS
DREW COUNTY
My Commission Expires 04-05-2028
7

5-0,ca'r8

CERTIFICATE OF SERVICE

ii!) day of ZinitiOx-5
, 2021 a copy of
was mailed, with sufficient
Pe ki4i cha Car P....\ve_r- iga

This is to certify that on the
the foregoing

u

postage affixed, to:

532r-erne- COJrk \\-Ne UAlleAs‘o-ke_s
Scold, Vloorrig 1 of e_r1c
Viashrl1/44, S)C
209-13-0m1

oils=
App late,
Se 6
ADC#
al-40
880 East Gaines St.
Dermott, Arkansas, 71638

CERIFICATE OF COUNSEL

I, Jerry Walker#124248, is not represented by any counsel, I am submitting this petition to the United
States Supreme Court pro se timely and in good faith and not delay.
RespectfUlly Submitted,

Jerry Walker# 124248
Delta Regional Unit
880 East Gaines Street
Dennott , Ar. 71638

I

No. 20-6138
January term 2021
IN THE
SUPREME COURT OF THE UNITED STATES

_JERRY WALKER

PETITIONER

vs.

WENDY KELLEY

RESPONDENT

PROOF OF SERVICE

Un114.4-do swear or declare that on this date, all...torinsin , 20 I , as required by
Supreme Coat Rule 29, I have served the enclosed MOTION FOR LP'AVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR PETITION FOR REHEARING on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage pre paid, or by delivery to a third-party
commercial carrier for delivery within 3 calender days
The names and address of those served are as follows:
Scott S. Harris, Clerk
Supreme Court of the United State
Office of The Clerk
Washington, DC 20543-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on .1,41,1),rb la , 2041

